Office of Audits and Evaluations
Report No. AUD-13-001


DRR’s Controls for Managing, Marketing,
and Disposing of Owned Real Estate
Assets




                                   October 2012
                                      Executive Summary
                                      DRR’s Controls for Managing, Marketing, and
                                      Disposing of Owned Real Estate Assets

                                                                                      Report No. AUD-13-001
                                                                                               October 2012

Why We Did The Audit
Within the FDIC, the Division of Resolutions and Receiverships (DRR) has primary responsibility for
resolving failed FDIC-insured depository institutions, including the liquidation of assets in receivership.
As of December 1, 2011, the FDIC owned 1,398 Owned Real Estate (ORE) assets with a book value of
approximately $1.2 billion (5 percent of total receivership assets). From January 1, 2011 to
November 30, 2011, the FDIC sold 2,259 ORE assets, with a book value over $1.5 billion and a sales
price of approximately $620 million.

Our performance audit objective was to assess control activities associated with DRR’s processes for
managing, marketing, and disposing of ORE assets. To address our objective, we (1) reviewed policies,
procedures, and control processes for managing, marketing, and disposing of ORE assets; (2) interviewed
DRR officials; and (3) determined whether key control activities were implemented for 55 judgmentally
selected ORE assets.


Background
When a bank fails, the FDIC establishes a receivership to liquidate the assets of the failed financial
institution. In most cases, these assets include ORE, such as single-family homes, condominiums, office
buildings, hotels, and undeveloped land, among other types of property. The FDIC acquires ORE initially
because it is on the books of the failed bank and therefore becomes an asset of the receivership. Once the
receivership is established, the FDIC acquires ORE through the foreclosure process on non-performing
loans. ORE may also be discovered during the term of the receivership because, for example, the ORE
asset was not appropriately included on the books of the failed bank or as the result of a settlement during
litigation related to the bank’s failure.

To facilitate the process of liquidating ORE assets, DRR uses the services of two nationwide ORE
contractors to assist in the acquisition, management, marketing, and final disposition of all types of ORE
assets. DRR also assigns one of its Resolution and Receivership Specialists (Account Officers) to
monitor contractor management, marketing, and disposition efforts. The contractor maintains all original
asset files and updates management and marketing information on each property. This information is
available to DRR Account Officers through the contractor’s Web site.

Policies and procedures regarding ORE marketing, management, and disposition are contained in DRR’s
Asset Resolution Manual (ARM), effective May 2011 (previously, the Asset Disposition Manual). In
addition to the ARM, DRR has issued Guidance Memorandums to temporarily amend or add procedures
to be followed by DRR Account Officers. Also, DRR has established Job Aids, which provide guidance
for performing and documenting a variety of functions related to the management, marketing, and
disposition of ORE.

Audit Results
DRR has established a number of important control activities for managing, marketing, and disposing of
ORE assets, and DRR has provided Account Officers adequate guidance to facilitate DRR’s monitoring
of contractors. Specifically, we reviewed contractor Web sites and discussed the status of the 25 active
ORE assets in our sample with DRR officials and determined that:

                                                      i
                                To view the full report, go to www.fdicig.gov
                                       DRR’s Controls for Managing, Marketing, and
  Executive Summary                    Disposing of Owned Real Estate Assets

                                                                                         Report No. AUD-13-001
                                                                                                  October 2012



        •    Environmental Assessments had been conducted and documented in reports in accordance
             with DRR’s ARM.
        •    Current appraisals had been conducted and the results documented in Appraisal Reports.
        •    Property tax information was obtained and documented on the contractor’s Web site. Tax
             payments had been made or were being reviewed in accordance with the ARM.
        •    Property and liability insurance coverage was properly obtained.
        •    Congressional inquiries and consumer complaints were being tracked and addressed.

With respect to our sample of 30 inactive assets (sold, written off, or otherwise disposed of), we reviewed
sales documentation and accounting entries and determined the following:

        •    Sales Cases were based on current appraisals.
        •    Approved Sales Cases were documented in the FDIC Automated Corporate Tracking System.
        •    Sales data and settlement information were properly recorded in DRR’s Communication,
             Capability, Challenge, and Control (4C) System.
        •    Sales proceeds were properly recorded in the appropriate receivership accounting records.
        •    Postings to the 4C System and to the receivership accounting records were made in a timely
             manner, generally within 15 days of settlement.

DRR could, however, strengthen ORE control activities related to monitoring budgets and costs, maintaining
property inspection reports, and transferring responsibility for assets. Enhanced procedures in these areas could
promote efficiencies and consistency in DRR’s management, marketing, and disposition of ORE assets. Our
report also includes an observation regarding weaknesses in ORE Budget Case documentation that DRR is
working to address.

Recommendations and Corporation Comments
The report contains three recommendations to:

     • Develop a process for comparing actual costs incurred on ORE assets to approved budgets.
     • Establish a standard location for filing property inspection reports to be readily available to
       all DRR personnel that may become involved with managing the property.
     • Enhance procedures for the transfer of ORE assets between Account Officers in a manner that
       facilitates communication and document sharing.

The Director, DRR, provided a written response, dated September 21, 2012, to a draft of this report. In
the response, the Director concurred with all three of the report’s recommendations and described
completed and planned corrective actions, which are responsive to the recommendations.




                                                        ii
                                 Contents

                                                        Page
Background                                                1

  Information Systems                                     2

  Management and Marketing                                3

  Disposition                                             5

Audit Results                                             6

  ORE Budget and Cost Monitoring                          6

  DRR Property Inspections Reports                        8

  Transferring Responsibility for ORE Assets              9

  Observation – ORE Budget Cases                         11

Corporation Comments and OIG Evaluation                  12

Appendices

   1. Objective, Scope, and Methodology                  13

   2. Glossary of Terms                                  16

   3. Acronyms                                           17

   4. Corporation Comments                               18

   5. Summary of the Corporation’s Corrective Actions    20

Tables

   1. Active ORE Sample                                  14

   2. Inactive ORE Sample                                14
Federal Deposit Insurance Corporation                                             Office of Audits and Evaluations
3501 Fairfax Drive, Arlington, Virginia 22226                                          Office of Inspector General

DATE:                                       October 5, 2012

MEMORANDUM TO:                              Bret D. Edwards, Director
                                            Division of Resolutions and Receiverships



                                            [Signed]
FROM:                                       Stephen M. Beard
                                            Deputy Inspector General for Audits and Evaluations

SUBJECT:                                    DRR’s Controls for Managing, Marketing, and Disposing
                                            of Owned Real Estate Assets (Report No. AUD-13-001)

This report presents the results of our audit of the Division of Resolutions and
Receiverships (DRR) controls for managing, marketing, and disposing of owned real
estate (ORE) assets. As described more fully below, ORE is a property that has been
acquired through foreclosure after a borrower has defaulted on a loan. As of
December 1, 2011, the FDIC owned 1,398 ORE assets with a book value of
approximately $1.2 billion (5 percent of total receivership assets). From January 1, 2011
to November 30, 2011, the FDIC sold 2,259 ORE assets, with a book value over
$1.5 billion and a sales price of approximately $620 million.

The audit objective was to assess control activities associated with DRR’s processes for
managing, marketing, and disposing of ORE assets. To address our objective, we
(1) reviewed policies, procedures, and control processes for managing, marketing, and
disposing of ORE assets; (2) interviewed DRR ORE officials; and (3) determined
whether key control activities were implemented for 55 judgmentally selected ORE
assets with a total appraised value of approximately $202 million. 1 We conducted this
performance audit in accordance with generally accepted government auditing standards.
Appendix 1 of this report includes additional details on our objective, scope, and
methodology. Appendix 2 contains a glossary of key terms, 2 and Appendix 3 contains a
list of acronyms.

Background

When a bank fails, the FDIC establishes a receivership to liquidate the assets of the failed
financial institution. In most cases, these assets include ORE, such as single-family
homes, condominiums, office buildings, hotels, and undeveloped land, among other types
of property. The FDIC acquires ORE initially because it is on the books of the failed

1
 See Tables 1 and 2 in Appendix 1 for a detailed description of our sample.
2
 Certain terms that are underlined when first used in this report are defined in Appendix 2, Glossary of
Terms.
bank and therefore becomes an asset of the receivership. Once the receivership is
established, the FDIC acquires ORE through the foreclosure process on non-performing
loans. ORE may also be discovered during the term of the receivership because the ORE
asset was not appropriately included on the books of the failed bank or as the result of a
settlement during litigation related to the bank’s failure.

To facilitate the process of liquidating ORE assets, DRR uses the services of two
nationwide ORE contractors (contractor) to assist in the acquisition, management,
marketing, and final disposition of all types of ORE assets. 3 DRR also assigns one of its
Resolution and Receivership Specialists (Account Officers) to monitor contractor
management, marketing, and disposition efforts. The contractor maintains all original
asset files and updates management and marketing information on each property. This
information is available to DRR Account Officers through the contractor’s Web site.

Policies and procedures regarding ORE marketing, management, and disposition are
contained in DRR’s Asset Resolution Manual (ARM), effective May 2011 (previously,
the Asset Disposition Manual). In addition to the ARM, DRR Directors and Assistant
Directors have issued Guidance Memorandums to temporarily amend or add procedures
for DRR Account Officers. Also, DRR has established Job Aids, which provide guidance
for performing and documenting a variety of functions related to the management,
marketing, and disposition of ORE.

Information Systems
DRR relies on the contractor’s Web site for the following documentation and information
regarding the day-to-day management of the ORE assets: appraisals; property tax
invoices and payments; environmental assessments; property inspections; maintenance
invoices; and broker names, contacts, and assignments.

DRR’s inventory of ORE assets is maintained in its Communication, Capability,
Challenge, and Control (4C) System. ORE assets are initially entered in the 4C System
at acquisition and assigned unique identification numbers. Basic information on each
asset is maintained in the 4C System, such as the property address, book value, DRR
Account Officer, contractor, and receivership. When the ORE asset is sold or otherwise
disposed of, the asset is coded as inactive, 4 and sales and settlement information are
recorded in the 4C System. On a monthly basis, the FDIC’s ORE inventory in the 4C
System is reconciled with ORE inventory information provided by each of the
contractors.

DRR’s Business Information Systems Unit initially enters the book value of each ORE
asset into DRR’s Metavante Servicing System using the 4C identification number as a

3
  DRR used five contractors until November 2011 when the contracts ended with three of those contractors.
ORE assets that were serviced by the three contractors were reassigned to the remaining two contractors
during the fourth quarter of 2011.
4
  ORE assets coded in 4C as inactive have been sold, written off, or otherwise disposed.

                                                   2
unique identifier. Metavante next transmits this information to the ORE Subsidiary
Ledger (Control Totals Module (CTM)). CTM then posts journal entries to the FDIC’s
General Ledger, which includes receivership financial statements. Subsequent journal
entries as a result of the disposition of ORE assets are initially entered into the Metavante
Servicing System and then follow this same path to the FDIC’s General Ledger. CTM is
the primary source of receivership and subsidiary journal entries posted to the FDIC’s
General Ledger.

As it relates to ORE, DRR utilizes the FDIC Automated Corporate Tracking System
(FACTS), a Web-based tracking tool, to manage and approve cases. For example, ORE
Budget and Sales Cases submitted by ORE contractors are entered into FACTS for
approval by the appropriate Delegated Authority within DRR.

Management and Marketing

One of DRR’s primary objectives related to ORE is to maintain or enhance property
value and to ensure that the presence of the FDIC in a particular neighborhood is
perceived as a contributory factor to market stability. Aside from ensuring that the
property does not suffer depreciation in value from neglect or other causes, the contractor
is to take the necessary steps to preserve or enhance the marketability of the property,
improve the property’s cash flow, and be responsive to the needs and concerns of
neighbors and customers.

Key tasks related to the management and marketing of ORE assets include:

       •   Environmental Assessments. According to the ARM, all ORE properties,
           with the exception of those under sales contract or under a Purchase and
           Assumption Agreement at the time of bank closing, and all pre-foreclosure
           loans with real estate collateral must have an environmental assessment in
           accordance with DRR’s Environmental Guidelines Manual. The primary
           objective of the environmental assessment is an effective and timely
           evaluation to assess and manage environmental risks associated with an asset.
           The policies and procedures help to ensure that assets with environmental
           issues are handled consistently and reduce the possibility of diminished
           recovery or exposure to lawsuits. DRR’s environmental procedures address
           not only assets with environmental issues but also properties that are protected
           for future conservation purposes or considered historically significant.

       •   Budget Cases. DRR must authorize all transactions regarding each asset
           under its delegation or authority. The ORE Budget Case documents
           authorization of expenditures for managing and marketing ORE and for
           determining the amount of any Task Order to be issued and approved under
           appropriate delegations of authority. To provide approval for expenditures for
           ORE assets, the initial budget is prepared for an 18-month period, and annual
           budgets are prepared for every succeeding 12-month period thereafter. All
           cases and approvals are documented in DRR’s FACTS database.

                                              3
       •   Appraisal Reports. DRR’s ARM provides that appraisals on ORE with an
           appraised value greater than $250,000 should generally be obtained annually
           to be considered current. Appraisals on ORE with an appraised value of
           $250,000 or less are required only every 24 months.

       •   Contractor Property Inspection Reports. DRR’s ARM states that physical
           inspection of ORE should be considered on all properties and generally should
           be performed on all properties with improvements, crops, livestock, or
           mineral/oil/gas/timber rights. An initial inspection should be completed
           within 30 days but no later than 60 days, after assumption of ownership, and
           periodic inspections should be performed no less frequently than every 30
           days thereafter.

       •   Property Tax Payment Information. The FDIC is subject to state and local
           real property taxes for ORE only if those taxes are assessed according to the
           property’s value. For each ORE property, the Account Officer, or designee, is
           responsible for ensuring that each tax bill has been received and reviewed.

Contractors are paid a monthly management fee based on the property type, value, and
length of time the property has been on the market. The FDIC is billed monthly by the
contractor for the management fee as well as for any pass-through costs that may be
incurred for subcontracted services such as property inspections, appraisals, property
maintenance, and other property management costs. Contractor invoices are submitted to
DRR’s Accounting Department for processing and to DRR’s Contract Oversight
Department for review and approval.

DRR Account Officers provide guidance to the contractor and monitor the management
and marketing effort. According to the ARM, Account Officers are responsible for:

       •   Reviewing the contractor’s Web site for accuracy regarding: appraisals, title
           reports, property inspection reports, environmental assessments, property
           taxes, and other pertinent documents maintained on the asset.
       •   Ensuring clear and marketable title on the property.
       •   Verifying adequate insurance coverage.
       •   Reviewing the accuracy of all property budgets and monitoring approved
           expenditures.
       •   Conducting property inspections and meeting with brokers.

As of December 1, 2011, ORE assets were assigned to 40 DRR Account Officers located
in the Dallas Regional Office (DRO), Dallas, Texas; East Coast Temporary Satellite
Office (ECTSO), Jacksonville, Florida; and Midwest Temporary Satellite Office
(MWTSO), Schaumburg, Illinois. At the time of our fieldwork, many of these ORE
assets had been recently reassigned from the West Coast Temporary Satellite Office
(WCTSO), Irvine, California, which was closed at the end of 2011.




                                            4
Disposition
Most ORE assets are disposed of by selling the property through a real estate broker, bulk
sale, or auction. DRR’s general goals for the sale of ORE are:

           •   Timely sales that maximize financial recovery to the FDIC on a net present
               value basis.
           •   On a very limited basis, use of seller financing when necessary to facilitate the
               sale of ORE.
           •   Adequate exposure of all properties to targeted markets.
           •   Fair and consistent treatment of the public in the marketing and disposition of
               ORE assets.
           •   Continued education of the brokerage community and general public on the
               disposition and acquisition of FDIC properties.
           •   Complete, accurate, and current information on all available receivership
               properties.
           •   Compliance with legislative and DRR requirements regarding the disposition
               of affordable housing.

The contractor is responsible for preparing a Sales Case that provides the marketing
strategy for selling an ORE asset. Sales Cases are required to be prepared in accordance
with FDIC Circular 7000.6, as amended August 2010, which establishes case preparation
guidelines. The Sales Case is submitted to the ORE Core Desk in the DRO. The Core
Desk enters the Sales Case into FACTS, and a Case Number is immediately created to
track the review and approval of the sales methodology. The Sales Case is then assigned
to the appropriate delegated authority for review and approval based on the dollar value
of the asset. Authority for approving ORE Sales Cases ranges from a DRR Section Chief
for assets less than $2.5 million to the DRR Senior Management Oversight Committee
(SMOC) for assets over $25 million.

After the Sales Case is approved, the ORE contractor executes the sale and provides
settlement documentation, including the Settlement Statement, cash wire documentation,
and Sales Case to the ORE Core Cash Desk. Sales proceeds are wired to the appropriate
receivership/subsidiary account, and the cash receipt is documented in DRR’s
Accounting Department. Based on the settlement documentation, the ORE Core Cash
Desk prepares a 4C Service Request, which indicates the sales amount, sales receipts and
expenses, and sales proceeds, and submits it electronically to DRR Accounting. DRR
Accounting verifies the 4C Service Request information with the sales proceeds wired to
the receivership account and prepares the appropriate journal entries in the Metavante
Servicing System that updates the receivership/subsidiary accounting records in CTM.
Once the sale is recorded in the receivership/subsidiary accounting records, the ORE
Core Desk is notified, and the asset is coded as inactive and sold in the 4C System. All
original hardcopy documentation is maintained in the asset file and stored with Iron
Mountain. 5


5
    Iron Mountain is a private company providing document and imaging storage management services.
                                                    5
Audit Results
DRR has established a number of important control activities for managing, marketing,
and disposing of ORE assets, and DRR has provided Account Officers adequate guidance
to facilitate DRR’s monitoring of contractors. Specifically, we reviewed contractor Web
sites and discussed the status of the 25 active ORE assets in our sample with DRR
officials and determined that:

       •   Environmental Assessments had been conducted and documented in reports in
           accordance with DRR’s ARM.
       •   Current appraisals had been conducted and the results documented in
           Appraisal Reports.
       •   Property tax information was obtained and documented on the contractor’s
           Web site. Tax payments had been made or were being reviewed in
           accordance with the ARM.
       •   Property and liability insurance coverage was properly obtained.
       •   Congressional inquiries and consumer complaints were being tracked and
           addressed.

With respect to our sample of 30 inactive assets, we reviewed sales documentation and
accounting entries and determined the following:

       •   Sales Cases were based on current appraisals.
       •   Approved Sales Cases were documented in FACTS.
       •   Sales data and settlement information were properly recorded in the 4C
           System.
       •   Sales proceeds were properly recorded in the appropriate receivership
           accounting records.
       •   Postings to the 4C System and to the receivership accounting records were
           conducted in a timely manner, generally within 15 days of settlement.

DRR could, however, strengthen ORE control activities related to monitoring budgets
and costs, maintaining property inspection reports, and transferring responsibility for
assets. Enhanced procedures in these areas could promote efficiencies and consistency in
DRR’s management, marketing, and disposition of ORE assets. Our report also includes
an observation regarding weaknesses in ORE Budget Case documentation that the ORE
Department is working to address.

ORE Budget and Cost Monitoring

DRR established procedures for Account Officers to conduct ongoing monitoring of
budgeted expenses for each of the ORE assets assigned to ORE contractors. However,
for the active ORE assets we reviewed, we found that Account Officers were not
consistently monitoring the ORE contractors’ actual expenses as required. For 17 of the
25 ORE assets we sampled, the Account Officers informed us that they did not monitor

                                           6
actual expenses because they do not receive monthly contractor billing reports or review
contractor invoices.

DRR’s ARM provides that DRR Account Officers should monitor actual expenses and
compare these amounts to the property budget expenditures for each of the assets in their
portfolios. When actual expenditures to date for the budget period exceed 75 percent of
the total expenses budgeted for the period, a revised budget should be prepared
immediately for a new 12-month period.

Monthly billing reports are submitted by the contractors to DRR’s ORE Contract
Oversight Department and Accounting Department. However, Contract Oversight
Department and Accounting Department officials informed us that these reports are not
utilized by either department to compare actual ORE asset expenses to budgeted costs.
Also, monthly ORE contractor invoices are submitted to the DRR Contract Oversight
Department for review prior to payment approval. However, Contract Oversight
Department personnel are not involved in the management or marketing of the ORE
properties and, therefore, cannot evaluate the reasonableness of the charges. Also, none
of the Account Officers we interviewed who were responsible for the 25 sampled active
ORE assets had been informed by DRR management that the contractor billing reports
were available on the DRR Accounting SharePoint Site.

DRR officials explained that because the 4C System was not developed to manage ORE,
they lost the ability to electronically track budgeted and actual expenses at the asset level
when the 4C System replaced the prior ORE information system. In addition, during
2009, the FDIC maintained an average inventory of 2,850 ORE assets as a result of the
recent financial crises. Therefore, DRR considered having Account Officers reviewing
expenses billed for each ORE asset inefficient and impractical because doing so would
require a large volume of individual asset spreadsheets to track every ORE asset. As an
alternative, DRR only monitored and tracked ORE contractor expenses at the Task Order
level (i.e., by receivership).

We contacted the ORE contractors to obtain current cost information regarding the ORE
assets we reviewed. Both contractors were able to provide us a spreadsheet detailing
pass-through costs and management fees charged to date for each of the sampled 25
active ORE assets. Furthermore, they advised us that the information included all
subcontractor costs passed through to the FDIC that are included in their monthly
reporting packages to DRR. We reviewed the monthly reports and found the costs
incurred by FDIC for these properties to be within budgeted amounts. Also, although
they are not formatted in a manner that facilitates a comparison with the property budget,
the reports nevertheless provide details of the management and marketing costs for ORE
assets.

Because ORE asset management and marketing costs are not actively monitored on an
asset-level basis, Account Officers:

       •   cannot fully comply with the ARM requirement to ensure costs incurred are
           authorized, prudent, reasonable, and within budget, and

                                              7
       •   lack useful information for developing management, marketing, and
           disposition strategies.

Recommendation

(1)    We recommend that the Director, DRR, develop a process or system to provide
       actual ORE contractor cost information, including management fees and pass-
       through costs, to the responsible DRR Account Officers for a comparison of
       actual costs incurred on the ORE assets to approved budgets as prescribed by the
       ARM.

ORE Property Inspections
In addition to the property inspections conducted by the contractors, DRO, ECTSO, and
MWTSO established inspection programs to review the contractor’s maintenance and
marketing of ORE properties. Further, DRR Account Officers are required to become
familiar with their assigned ORE assets by personally inspecting the property and filing a
standard property inspection report. However, Account Officers assigned to 7 of the 25
ORE assets we sampled did not know whether the property had been inspected by prior
Account Officers or whether a property inspection report had been completed.

DRR issued a Guidance Memorandum on Property Inspections, on January 21, 2011, that
requires Account Officers to conduct a property inspection within 90 days of the asset
being assigned. The primary purpose is to gain knowledge of the real estate market in the
area where the property is located and assess the property condition. The guidance states
that a property inspection report is to be completed and sent to the National Field Office
Branch (NFOB) Property Inspection Desk. Additional guidance provided to Account
Officers in the form of an ORE Management and Marketing Job Aid states that the
property inspection report should include an assessment of the condition of the property,
including the need for maintenance items or repairs, and recommendations as
appropriate.

We contacted the DRR Account Officer responsible for each of the active ORE assets in
our sample to determine whether the property had been inspected by DRR personnel. For
18 of the 25 ORE assets we reviewed, property inspection reports completed by the
current or a prior Account Officer were provided. However, for six of the ORE assets,
the Account Officers informed us that the ORE asset had been recently transferred to
their portfolios from another Account Officer and that they could not locate a property
inspection report and could not determine whether the property had been inspected.
These Account Officers were also not familiar with the NFOB Property Inspection Desk.
We followed up with DRR ORE management and verified that a DRR property
inspection had been conducted for these six assets. However, the benefit of the property
inspection reports was reduced because they were not available to the DRR personnel
primarily responsible for the property.

We discussed this matter with ORE officials, and they agreed there is a need to
coordinate, in a more fluid fashion, the various inspection programs and associated
                                            8
results. ORE officials told us that there has been a revitalization of the programs and new
staff assigned for the specific goal of streamlining the report posting processes and
“opening” the files to anyone needing access to the information. To further simplify the
process, the Account Officer’s property inspection reports will reside in the ORE
SharePoint Site. A single location has been identified in the ORE SharePoint Site to
house all new property inspection reports. The property inspection reports will be
organized by receivership to facilitate access by personnel outside of the ORE
organization. Additionally, DRR is in the process of writing a Job Aid to further simplify
access to the reports for those not familiar with ORE processes, procedures, and
nomenclatures.

Recommendation

(2)    We recommend that the Director, DRR, issue guidance to DRR Account Officers
       establishing and communicating a standard location for filing property inspection
       reports to be readily available to other DRR personnel that may become involved
       with the property.

Transferring Responsibility for ORE Assets
Due to changes in the ORE asset inventory, office closings, and staffing changes, DRR
management found it necessary to reassign oversight responsibility for some ORE assets
among Account Officers within the same office or between DRR offices. During our
review, many of the current Account Officers assigned to an asset had difficulty
providing us with management information and marketing history on the ORE assets
because, according to our interviews, they had recently been assigned the assets and were
unaware of the work the prior Account Officers had conducted. The lack of availability
of such information may hamper the Account Officers’ work to efficiently and effectively
monitor ORE assets.

Based on ORE asset information obtained from the 4C System, we contacted the Account
Officer assigned to each of the 25 active ORE assets in our sample to obtain information
regarding budget cases, property inspections, and marketing history. Generally, the
Account Officer was able to provide us with the information we requested. However, for
11 of the ORE assets, the Account Officers told us that the asset had been recently
assigned to them and that they could not provide some of the documentation and
information we requested. Specifically, regarding the 25 active ORE assets we reviewed,
the current Account Officers could not provide:

       •   budget cases for 10 ORE assets,
       •   the name of the prior Account Officer for 9 ORE assets, and
       •   property inspection reports for 6 ORE assets.

The inability to provide this information was largely a result of the closing of the
WCTSO at the end of 2011 when responsibility for ORE assets previously monitored by
WCTSO personnel was transferred to Account Officers located in the DRO. DRR ORE
management advised us that DRR’s goal for the transitioning of ORE assets between
                                            9
Account Officers was that the process be conducted in a manner that facilitates the ability
of the new Account Officers to effectively manage, market, and dispose of the ORE
asset. In anticipation of closing the WCTSO, a “shadow” DRO Account Officer was
also assigned to monitor assets with the existing WCTSO Account Officer. The goal for
this action was to provide the DRO Account Officers an opportunity to become familiar
with the ORE assets that would ultimately become their responsibility for monitoring.

Based on our discussions with DRR ORE managers and Account Officers, we concluded
that reassignment of assets prior to the WCTSO closing was not consistently conducted
in a manner that ensured the new Account Officer would be familiar with the reassigned
asset prior to the closing of the WCTSO. For example, Account Officers did not
maintain notes on ORE properties in a shared file available for other Account Officers.
In some cases, ORE assets had been reassigned within the WCTSO because the original
WCTSO Account Officer had left the FDIC before the ORE asset was reassigned to a
new DRO Account Officer. Therefore, neither the most recent WCTSO Account Officer
nor the DRO Account Officer responsible for the asset could provide the information we
requested.

We discussed the results of our review with DRR ORE managers who advised us that
they were aware of these transition shortcomings associated with the WCTSO closing.
They explained that the situation was exacerbated by a high volume of Account Officer
reassignments during the transition of the WCTSO workload into the DRO. They
informed us that DRR’s strategy was to have the WCTSO retain as many assets as
possible through the closing date, which resulted in continuous reassignment of assets
during the transition period as some Account Officers departed for jobs in the private
sector.

DRR further explained that improved procedures will be implemented during future
office closings, including reassigning the portfolio of departing Account Officers from
the closing offices to the DRO shadow Account Officer to ensure continuity.
Specifically, this approach is in the transition plan for the MWTSO. DRR officials also
explained that the lack of face-to-face debriefing sessions between the receiving Account
Officer and the departing Account Officer saved travel costs but limited communication
that would have mitigated some of the transition issues that occurred. In this regard, the
MWTSO transition plan calls for the receiving Account Officer to coordinate a pre-
debriefing session and a final face-to-face debriefing session should an Account Officer
leave ahead of schedule.

Recommendation

(3)    We recommend that the Director, DRR, establish procedures for the reassignment
       of ORE assets between Account Officers in a manner that facilitates
       communication and document sharing between the Account Officers involved in
       the transfer.




                                            10
Observation - ORE Budget Cases
Budget Cases documenting approval for asset expenditures were not consistently
prepared and approved in FACTS as prescribed by DRR guidelines. We noted 2
exceptions associated with 32 of the 55 ORE assets we reviewed: (1) ORE contractors
did not prepare budgets within prescribed timeframes and (2) DRR did not return
approved budgets that had been submitted for use in managing assets, and/or did not
upload approved budgets to the FACTS system. Consequently, DRR was not in
compliance with the policies established for Budget Case preparation and approval, and
the FACTS system did not contain key documents authorizing expenditures for managing
and marketing the 32 assets. DRR has already taken some mitigating steps to address
these areas.

DRR’s ARM establishes the requirement that FDIC staff, or designee, responsible for the
ORE asset should prepare and submit the Budget Case for approval 2 months before the
start of each succeeding 12-month budget period. No expenditures should be incurred
without an approved budget except for (a) expenditures necessary to remedy emergency
situations and (b) expenditures relating to appraisals, title work, asset search, and
Environmental checklists and Phase I Environmental Site Assessments that are within
guidelines for such expenditures. Budget Cases are prepared and submitted by the
contractor to the ORE Core Desk in the DRO and distributed to the appropriate delegated
authority within DRR for approval.

We attempted to verify that Budget Cases were approved for each of the 25 active and 30
inactive ORE assets in our audit sample by entering the 4C asset identification number in
FACTS. However, for 10 of the 25 active ORE assets and 22 of the 30 inactive ORE
assets, we could not locate an approved Budget Case. We submitted the list of Budget
Cases we could not locate to ORE officials and were informed that the budgets could not
be located by the asset identification number and needed to be researched.

ORE officials were ultimately able to find approved budgets for 9 of the 10 active ORE
assets and 21 of the 22 inactive ORE budgets we could not locate. We were informed
that the budgets could not be located because they were maintained by receivership,
rather than by ORE asset, and to locate the individual property budgets required
considerable research. ORE officials further explained that due to the large number of
bank failures from 2008 to 2010 and limited ORE staffing, the budget approval process
was too cumbersome and inefficient given the unprecedented and continuous influx of
ORE assets. Therefore, the budget process was amended and the use of a budget
spreadsheet, by receivership, was adopted. During this time, the FDIC’s Contract
Oversight Manager engaged the ORE contractor based on an estimate of projected
expenses for the receivership, instead of approving individual property budgets. In
November 2010, the ORE Department asked all ORE contractors to prepare new budgets
on all ORE properties. As of April 30, 2012, there were only 28 properties in the ORE
inventory of 1,051 properties without an approved budget; however, these budgets were
in the process of being prepared.


                                           11
We acknowledge that the banking crises resulted in a tremendous workload for DRR and
the need for management to ensure resources were efficiently utilized. We also recognize
that the ORE Department is working to ensure all ORE assets have approved budgets.
DRR has also informed us that they are in the process of creating a more efficient and
effective budget tracking system. Therefore, we are not recommending further corrective
action. However, we encourage DRR to ensure that initiatives to update policies,
procedures, and systems for the review, approval, and tracking of ORE property budgets
receive the resources necessary to accomplish this task in a timely manner.

Corporation Comments and OIG Evaluation
The Director, DRR, provided a written response, dated September 21, 2012, to a draft of
this report. The response is presented in its entirety in Appendix 4. In the response, the
Director concurred with all three of the report’s recommendations and described
completed and planned corrective actions to address the recommendations.

A summary of the Corporation’s corrective actions is presented in Appendix 5. The
completed or planned actions are responsive to the recommendations, and the
recommendations are resolved.




                                            12
                                                                           Appendix 1

                    Objective, Scope, and Methodology

Objective

Our audit objective was to assess control activities associated with DRR’s processes for
managing, marketing, and disposing of ORE. We conducted this performance audit from
November 2011 to May 2012 in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Scope and Methodology

The scope of this audit included the FDIC’s active ORE asset inventory as of
December 1, 2011 and ORE disposed of from January 1, 2011 through November 30,
2011. The scope of our work was limited to control activities performed by DRR
Account Officers and other DRR personnel as described in the report. We did not
conduct procedures related to ORE contractors’ oversight of subcontractors or other
internal procedures of the ORE contractors.

To assess control activities, we gained an understanding of DRR’s control objectives and
processes related to managing, marketing, and disposing of ORE by interviewing
cognizant officials and reviewing relevant policies and procedures. This included
obtaining an understanding of DRR’s processes for updating and utilizing DRR’s 4C
system, FACTS, and contractor Web sites. Specifically, to understand the control
objectives and processes, we:

       •    Interviewed DRR officials in the FDIC’s DRO, ECTSO, and MWTSO.
       •    Interviewed managers, Account Officers and other personnel in DRR’s ORE,
            Contract Oversight, and Accounting Department.
       •    Interviewed contracting officials in the FDIC’s Division of Administration.
       •    Interviewed the Financial Reporting Manager of Prescient Asset Management,
            Inc., in Coral Gables, Florida.
       •    Interviewed the Corporate Comptroller of Quantum Partners, in Houston,
            Texas.
       •    Reviewed DRR’s ARM and other guidance related to managing, marketing,
            and disposing of ORE assets.

As shown in Tables 1 and 2, to test the effectiveness of control activities, we
judgmentally selected 25 active ORE assets assigned to ORE contractors as of
December 1, 2011 and 30 inactive ORE assets from January 1, 2011 to November 30,
2011.




                                           13
                                                                              Appendix 1



     Table 1: Active ORE Sample
                                         Number of ORE
           ORE Property Type                Assets          Total Appraised Value
      Multi-Family                            4                        $102,075,000
      Single-Family Residence                   4                        $1,107,000
      Bank Premises                             4                        $9,642,000
      Retail                                    3                        $2,890,000
      Land                                      3                       $10,210,000
      Industrial                                2                        $1,015,000
      Office                                    2                        $2,680,000
      Other                                     2                          $640,000
      Lodging                                   1                        $1,213,000
      Total                                    25                     $131,472,000

     Table 2: Inactive ORE Sample
                                         Number of ORE
           ORE Property Type                Assets          Total Appraised Value
      Multi-Family                            3                          $4,620,000
      Single-Family Residence                   6                       $11,355,000
      Bank Premises                             3                       $17,845,000
      Retail                                    3                        $8,290,000
      Land                                      3                        $3,230,000
      Industrial                                3                        $2,780,000
      Office                                    3                        $6,995,000
      Other                                     3                       $11,145,000
      Lodging                                   3                        $3,892,000
      Total                                    30                      $70,152,000

Our samples were based on the highest dollar amount related to property type, DRR
satellite office, and ORE contractor hired to manage and market ORE assets. In addition,
we conducted property inspections of 10 active ORE assets that were not included in our
testing sample. None of the sampling techniques that we used can be projected to the
intended population by standard statistical methods. Specifically, we:

       •       Reviewed documentation of Budget Cases, Environmental Assessment, tax
               payments, property and liability insurance, cost monitoring, property
               inspections, appraisals, and 4C inventory information for 25 active ORE
               assets.
       •       Conducted property inspections of 12 active ORE assets to verify property
               maintenance and that sales information were clearly displayed.


                                              14
                                                                                  Appendix 1

          •    Reviewed information on congressional inquiries and consumer complaints
               related to ORE assets in our active ORE sample.
          •    Verified receipt of HUD-1 6 Settlement Statements, documentation of wired
               sales proceeds to receivership accounts, accuracy of journal entries to the
               Metavante Servicing System, and sales records in the 4C System for 30 ORE
               sales.
          •    Reviewed timeframes for posting ORE sales activity to the 4C System and
               applicable receivership accounting records.
          •    Verified whether sales were based on current appraisals and that approved
               sales cases were properly documented.
          •    Verified whether ORE Budget Cases were properly approved for 30 inactive
               ORE assets.
          •    Evaluated the transition of ORE assets from the former WCTSO to the DRO.

We used non-statistical sampling techniques to support the findings, conclusions, and
recommendations in this report. We performed the audit work at the FDIC’s offices in
Arlington, Virginia; and Dallas, Texas.

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the stated objective, we focused on control activities as described above
and did not assess the DRR’s overall internal control or management control structure.
We obtained data from the DRR’s information systems; however, we did not assess the
information systems controls other than verifying the accuracy and completeness of data
recorded in DRR’s 4C system and the Metavante Servicing System for sampled items by
tracing information from supporting documentation to the systems.

The Government Performance and Results Act of 1993 (the Results Act), as amended,
directs Executive Branch agencies to develop a customer-focused strategic plan, align
agency programs and activities with concrete missions and goals, and prepare and report
on annual performance plans. For this audit, we assessed DRR’s 2012 Divisional Goal
for enhancing DRR’s management reporting related to the FDIC’s ORE inventory
maintained in the 4C System.

Regarding compliance with laws and regulations, we performed limited tests to determine
compliance with certain aspects of the FDI Act Section 11(d) Powers and Duties of
Corporation as Conservator or Receiver and did not identify any instances of
noncompliance. We assessed the risk of fraud and abuse in designing our test procedures
and in the course of evaluating audit evidence.




6
    U. S. Department of Housing and Urban Development Settle Statement (HUD-1).

                                                  15
                                                                           Appendix 2

                              Glossary of Terms


     Term                                        Definition
Book Value        The value of an ORE asset established from the balance sheet of the
                  failed financial institution.
Contractor        An individual, corporation, partnership, joint-venture, or other third-
                  party entity that enters into a contract with the FDIC to provide goods,
                  services, or other requirements pursuant to its terms and conditions.
General Ledger    A consolidation of all FDIC financial accounts and records from
                  which the FDIC’s financial statements are created. The General
                  Ledger is supported by subsidiary ledgers detailing specific financial
                  accounts.
Management        Fees billed to the FDIC by ORE contractors that are established at a
Fees              standard rate, generally billed monthly, and documented in a contract
                  for specified services to be performed.
Pass-Through      Generally, these costs include expenditures that satisfy unfunded
Costs             commitments, such as construction advances, or that protect the
                  FDIC’s interest in an asset, such as appraisal fees, property inspection
                  costs, landscaping, repairs, and maintenance.
Property          A standard report completed during inspection of an ORE property.
Inspection        The report includes a description of the surrounding neighborhood,
Reports           evaluates property maintenance, recommendations for repair or
                  maintenance, and other marketing concerns to be addressed.
Purchase and      An agreement documenting the sale of assets and
Assumption        assumption of liabilities between the receivership and acquiring
Agreement         institution.
SharePoint Site   A Web site designed for managing and organizing documents that
                  need to be stored, found, and collaborated on, updated, managed,
                  documented, traced, or restored.
Subcontractor     An individual, corporation, partnership, joint-venture, or other third-
                  party entity that has entered into a contract with an FDIC contractor to
                  perform work on behalf of the FDIC.
Subsidiary        A group of similar financial accounts whose combined balances equal
Ledger            the balance in a specific general ledger account.
Task Order        Orders for the acquisition of goods or services, issued under a Basic
                  Ordering Agreement with a contractor.




                                          16
                                                              Appendix 3

                            Acronyms

4C      Communication, Capability, Challenge, and Control System

ARM     Asset Resolution Manual

CTM     Control Totals Module

DIF     Deposit Insurance Fund

DRO     Dallas Regional Office

DRR     Division of Resolutions and Receiverships

ECTSO   East Coast Temporary Satellite Office

FACTS   FDIC Automated Corporate Tracking System

MWTSO   Midwest Temporary Satellite Office

NFOB    National Field Office Branch

ORE     Owned Real Estate

SMOC    Senior Management Oversight Committee

WCTSO   West Coast Temporary Satellite Office




                                  17
                                                                                                Appendix 4

                                                  Corporation Comments




550 17th Street NW, Washington, D.C. 20429-9990                                    Division of Resolutions and Receiverships


 DATE:                               September 21, 2012

 MEMORANDUM TO:                      Stephen M. Beard
                                     Deputy Inspector General for Audits and Evaluations

 FROM:                               Bret D. Edwards, Director /Signed/
                                     Division of Resolutions and Receiverships

 SUBJECT:                            Response to Draft Audit Report Entitled, DRR‘s Controls for
                                     Managing, Marketing, and Disposing of Owned Real Estate Assets
                                     (Assignment No. 201 1-064)

 This memorandum is in response to the recommendations in the subject draft audit report dated
 August 22, 2012.

 DRR has been working with the OIG to coordinate the audit involving Owned Real Estate
 (ORE) assets. DRR appreciates the many relevant observations and recommendations provided
 by the OIG. We look forward to working with the OIG to ensure that the oversight of ORE
 conforms to all applicable program area objectives.

 OIG Audit Recommendation 1: Develop a process for comparing actual costs incurred on ORE
 assets to approved budgets.

           DRR Response: The ORE group concurs with the recommendation and together with
           BOS, BIS, DOA Contracting and Contract Oversight, the group is developing a
           mechanism to capture actual expenses from NFE and compare these to the expenses
           under the approved budget. The process being developed is similar to that available prior
           to the implementation of 4C; allowing the capture or expenses at the asset level. This will
           require certain contract modifications to ensure standardization in reporting and would
           entail modification to those contracts that provide services outside the scope of the
           Nationwide ORE Contractors such as, appraisals, environmental assessments, etc. With
           future enhancements to ORE Tracker and DIT assistance in the capturing and feeding of
           expenses from NFE to ORE Tracker, the ORE group should be in a position to develop a
           process to compare actual to budgeted expenses at the asset level.

           This project is expected to be completed prior to August 31, 2013.

 OIG Audit Recommendation 2: Establish standard location for filing property inspections
 reports to be readily available to all DRR personnel that may become involved with managing
 the property.

           DRR Response: The ORE group agrees with the recommendation. Going forward the
           inspection report data will be housed in the ORE SharePoint site which can be accessed
           by all ORE personnel.




                                                           18
     Appendix 4




19
                                                                                   Appendix 5

           Summary of the Corporation’s Corrective Actions

This table presents corrective actions taken or planned by the Corporation in response to the
recommendations in the report and the status of the recommendations as of the date of report
issuance.
                                                                                     a
               Corrective Action: Taken       Expected       Monetary     Resolved:      Open or
                                                                                                b
Rec. No.              or Planned             Completion      Benefits     Yes or No      Closed
                                                Date
     1        DRR is developing a            08/31/2013          $0          Yes         Open
              mechanism to capture actual
              expenses and compare these
              to the expenses under the
              approved budget. The
              process being developed is
              similar to that available
              prior to the implementation
              of 4C; allowing the capture
              of expenses at the asset
              level.
     2        Going forward, the             11/30/2012          $0          Yes         Open
              inspection report data will
              be housed in the ORE
              SharePoint site, which can
              be accessed by all ORE
              personnel. DRR personnel
              are in the process of
              updating, classifying and
              grouping all ORE
              inspections performed under
              the Contract Oversight
              Inspection Program and the
              inspections conducted by
              Temporary Satellite Office
              personnel.




                                               20
                                                                                        Appendix 5



        3        A specific job aid has been     09/21/2012          $0           Yes         Closed
                 developed to ensure proper
                 asset transfer protocols are
                 followed and is available for
                 review upon request.
                 Lessons learned from the
                 WCTSO transition has been
                 implemented with noted
                 differences in processes
                 being used in the transition
                 for the MWTSO.
a
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                    corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but alternative action meets the
                   Intent of the recommendation.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0)
                   amount. Monetary benefits are considered resolved as long as management provides an
                   amount.
b
  Recommendations will be closed when (a) Corporate Management Control notifies the OIG that corrective
actions are complete or (b) in the case of recommendations that the OIG determines to be particularly
significant, when the OIG confirms that corrective actions have been completed and are responsive.




                                                   21
